      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




October 21, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Indiana’s Reporting Fund Recoveries for Federal and State Medicaid
               Programs on the Form CMS-64 for Federal Fiscal Years 2000 Through 2008
               (A-05-09-00021)


Attached, for your information, is an advance copy of our final report on the review of Indiana’s
reporting fund recoveries for Federal and State Medicaid programs on Form CMS-64 for Federal
fiscal years 2000 through 2008. We will issue this report to the Indiana Family and Social
Services Administration, Office of Medicaid Policy and Planning, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox at (312) 353-2621 or through email at James.Cox@oig.hhs.gov. Please refer to
report number A-05-09-00021.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

October 26, 2010

Report Number: A-05-09-00021

Ms. Patricia Casanova
Director of Medicaid
Office of Medicaid Policy and Planning
Indiana Family & Social Services Administration
402 W. Washington Street, Room 461, MS-25
Indianapolis, IN 46207

Dear Ms. Casanova:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Indiana’s Reporting Fund Recoveries for Federal
and State Medicaid Programs on the Form CMS-64 for Federal Fiscal Years 2000 Through
2008. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-09-00021 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia Casanova


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF INDIANA’S REPORTING
FUND RECOVERIES FOR FEDERAL AND
STATE MEDICAID PROGRAMS ON THE
FORM CMS-64 FOR FEDERAL FISCAL
   YEARS 2000 THROUGH 2008




                       Daniel R. Levinson
                        Inspector General

                         October 2010
                         A-05-09-00021
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning (State agency), administers the Medicaid program. The State agency uses a
statewide surveillance and utilization control program to safeguard against unnecessary or
inappropriate use of Medicaid services and excess payments. The State agency contracted with
Health Care Excel, Inc. (HCE), Clifton Gunderson, and PrudentRX to conduct State Medicaid
audits of Medicaid providers. In addition, the Indiana State Board of Accounts (SBOA) and the
Medicaid Fraud Control Unit (MFCU) conducted audits and investigations, respectively, of
Medicaid providers. When they identified overpayments to providers, HCE, Clifton Gunderson,
and PrudentRX sent letters to the providers on behalf of the State agency that (1) identified the
overpayment amounts and applicable interest charges and (2) directed the providers to send
payments either to the appropriate contractor or to the State agency or notified providers of
future payment offsets. The SBOA notified the State agency of overpayments identified through
its federally required audits. Providers were notified of fraud- and abuse-related overpayment
amounts determined through settlements resulting from MFCU investigations.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud or abuse is the date that a provider is first notified in
writing of an overpayment and the specified dollar amount subject to recovery (42 CFR
§ 433.316(c)). For overpayments to providers resulting from fraud or abuse, discovery occurs on
the date of the State’s final written notice of the overpayment determination (42 CFR
§ 433.316(d)). Federal regulations (42 CFR § 433.304) define an overpayment as “… the
amount paid by a Medicaid agency to a provider in excess of the amount that is allowable for the
services furnished under section 1902 of the Act and which is required to be refunded under
section 1903 of the Act.” In addition, Federal regulations (45 CFR § 92.21(f)(2)) require the
State agency to refund interest earned on overpayments before requesting additional Federal
funds. Because the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program, Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS State Medicaid Manual
requires the Federal share of the overpayments be reported no later than the quarter in which the
60-day period ends.




                                                 i
OBJECTIVE

Our objective was to determine whether Medicaid overpayments and the interest earned on those
overpayments were reported on Form CMS-64 in accordance with Federal regulations.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. For Federal fiscal years 2000 through 2008, we estimated that the State agency
did not report Medicaid overpayments totaling $61,644,098 ($38,858,614 Federal share) in
accordance with Federal requirements. Also, the State agency did not report interest it collected
on 24 overpayments totaling $61,894 ($39,061 Federal share) in accordance with Federal
requirements.

Of the 120 overpayments we reviewed, 63 were partially reported or not reported on the
CMS-64. The remaining 57 were reported correctly or were not required to be reported. The
State agency also did not report all Medicaid overpayments to providers within the 60-day
requirement. Although the State agency collected interest on the overpayments collected, it did
not report all interest on the CMS-64 in accordance with Federal requirements.

The State agency did not properly report these overpayments because it had not implemented
internal controls to ensure that overpayments and interest collected from recovered
overpayments were reported on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $61,644,098 on the CMS-64 and refund
       $38,858,614 to the Federal Government,

   •   include unreported interest it collected on Medicaid recoveries totaling $61,894 on the
       CMS-64 and refund $39,061 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest collected on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our third recommendation.
Regarding the first recommendation, the State agency provided additional documentation and
indicated that most of the overpayments exceeding $1 million had been repaid, reported, or
resolved. The State agency stated that the remaining $18.5 million in overpayments had been
properly recorded in accordance with 42 CFR § 433.320. The State agency said that its practice
has been “to reduce federal draws to account for overpayments.” Regarding the second


                                                ii
recommendation, the State agency said it “routinely uses interest assessment as a form of
settlement with providers.”

The State agency comments are included as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s response, we revised our findings and recommendations to
exclude $26.9 million in overpayments as a result of additional documentation. We maintain
that our findings and recommendations for the remaining $61,644,098 in overpayments are
consistent with Federal requirements. The State agency’s policies regarding interest earned on
overpayment amounts are not in accordance with Federal regulations. During our review, we
took into account the State agency’s practice of reducing Federal draws to account for
overpayments. However, the State agency did not document that such reductions were made for
the overpayments we reviewed.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1
              Federal Requirements for Interest Earned ...........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................5

          OVERPAYMENTS NOT REPORTED ..........................................................................5

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................6

          INTEREST NOT REPORTED ........................................................................................6

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................7

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................7

          RECOMMENDATIONS .................................................................................................7

          STATE AGENCY COMMENTS ....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................8

OTHER MATTERS ..................................................................................................................8


APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning (State agency), administers the Medicaid program. The State Medicaid agency
implements a statewide surveillance and utilization control program to safeguard against
unnecessary or inappropriate use of Medicaid services and overpayments by Medicaid to
providers. The State agency contracted with Health Care Excel, Inc. (HCE), Clifton Gunderson,
and PrudentRX to conduct surveillance and utilization review audits of Medicaid providers. The
Indiana State Board of Accounts (SBOA) conducted federally required audits and provided
overpayment findings to the State. The State Medicaid Fraud Control Unit (MFCU) obtained
settlements from Medicaid providers in situations related to fraud or abuse investigations. All
together, SBOA, MFCU, HCE, Clifton Gunderson, and PrudentRX issued 3,498 audit reports,
settlement agreements, and overpayment letters to the State agency or Medicaid providers on
behalf of the State agency. The reports, agreements, and letters identified the amounts of the
overpayments and applicable interest charges. In addition, the agreements and letters directed
the providers to send reimbursement either to the appropriate contractor or to the State agency or
notified providers of future payment offsets. Electronic Data Systems (EDS) acted as the State
agency’s Medicaid fiscal agent and processed Medicaid claims.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary to recover the
amount of a Medicaid overpayment. Federal regulations (42 CFR § 433.304) define an
overpayment as “… the amount paid by a Medicaid agency to a provider in excess of the
amount that is allowable for services furnished under section 1902 of the Act and which is
required to be refunded under section 1903 of the Act.” A State has 60 days from the discovery
of a Medicaid overpayment to a provider to recover or attempt to recover the overpayment



                                                1
before the Federal share of the overpayment must be refunded to CMS. 1 Section 1903(d)(2)(C)
of the Act, as amended by the Consolidated Omnibus Budget Reconciliation Act of 1985, and
Federal regulations at 42 CFR part 433, subpart F, require a State to refund the Federal share of
overpayments at the end of the 60-day period following discovery whether the State has
recovered the overpayment from the provider. 2 Pursuant to 42 CFR § 433.316(c), an
overpayment that is not a result of fraud or abuse is discovered on the earliest date:

        (1) … on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is
        subject to recovery; (2) … on which a provider initially acknowledges a specific
        overpaid amount in writing to the medicaid agency; or (3) … on which any State
        official or fiscal agent of the State initiates a formal action to recoup a specific
        overpaid amount from a provider without having first notified the provider in
        writing.

Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on
the date of the final written notice of the State’s overpayment determination that a Medicaid
agency official or other State official sends to the provider. For overpayments identified through
Federal reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the
Federal official first notifies the State in writing of the overpayment and the dollar amount
subject to recovery.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly CMS-64. Provider overpayments must be credited on
the CMS-64 submitted for the quarter in which the 60-day period following discovery ends.

Federal Requirements for Interest Earned

Federal regulations (45 CFR § 92.21(f)(2)) state that “… grantees and subgrantees shall disburse
program income, rebates, refunds, contract settlements, audit recoveries and interest earned on
such funds before requesting additional [Federal] cash payments.” Federal grant administration
regulations (45 CFR part 92) became applicable to the Medicaid program on September 8, 2003.
For prior periods, similar provisions (45 CFR part 74) were applicable. In addition, the
Departmental Appeals Board (DAB) has determined that where Federal funds are used to
produce interest payments, these payments constitute an applicable credit within the meaning of
Office of Management and Budget Circular A-87 (2 CFR part 225). CMS is entitled to a share
in the amount of any interest collected (e.g., New Jersey Department of Human Services, DAB
No. 480 (1983)).

1
  Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act, P.L. No. 111-148,
provides an extension period for the collection of overpayments. Except in the case of overpayments due to fraud,
States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to attempt to recover,
such overpayment before making an adjustment to refund the Federal share of the overpayment. For overpayments
identified before the effective date, the previous rules on discovery of overpayment will be in effect.
2
  Sections 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require a State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.


                                                         2
Section 2500.1 of CMS’s State Medicaid Manual instructs the State to report the Federal share of
any interest received or earned on Medicaid recoveries on the CMS-64 Summary Sheet.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments and the interest earned on those
overpayments were reported on the CMS-64 in accordance with Federal regulations.

Scope

Our review covered Medicaid overpayments to providers that were identified in audit reports,
settlement agreements, and overpayment letters issued to providers that should have been
reported on the CMS-64 during Federal fiscal years (FY) 2000 through 2008. 3 We reviewed 120
of the 3,498 identified overpayments totaling $353,006,823. The identified audit reports,
settlement agreements, and overpayment letters represent overpayments of $1,000 or more for
Medicaid services that were subject to the 60-day rule.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to gaining an understanding of the identification, collection, and reporting
policies and procedures for Medicaid overpayments and related interest collected.

We performed fieldwork at the State agency, HCE, Clifton Gunderson, and EDS offices in
Indianapolis, Indiana, from November 2008 through July 2009.

Methodology

To accomplish our audit objective, we:

    •   reviewed Federal laws, regulations, and other requirements governing Medicaid
        overpayments and related interest earned;

    •   interviewed State agency, HCE, Clifton Gunderson, PrudentRX, SBOA, and EDS
        officials regarding policies and procedures relating to Medicaid overpayments subject to
        the 60-day rule and reporting overpayments on the CMS-64;

    •   identified 3,498 overpayments of $1,000 or more for Medicaid services subject to the
        60-day rule, which totaled $353,006,823;

    •   selected a stratified random sample of 120 overpayments: 100 from the 3,478
        overpayments of $1,000 to $1 million and all 20 overpayments of more than $1 million
        (Appendix A);
3
  We did not include Medicaid Rehabilitation Option program overpayments for FYs 2000 to 2005 that were
identified in a previous Office of Inspector General report (A-05-07-00072).

                                                      3
      •    established the dates of discovery using the dates that HCE, Clifton Gunderson,
           PrudentRX, and MFCU notified Medicaid providers in writing, on behalf of the State
           agency, of the overpayments and the dollar amount and interest subject to recovery;

      •    established dates of discovery using the date SBOA sent a copy to the State of the written
           audit report of the overpayment amount and interest subject to recovery;

      •    determined the quarter in which the 60-day period following discovery of the
           overpayment ended;

      •    reviewed the CMS-64 to determine whether the Medicaid overpayments and interest
           earned were reported for the quarter in which the 60-day period following discovery
           ended;

      •    reviewed the CMS-64 to determine whether Medicaid overpayments and interest
           collected were reported during any subsequent quarter through June 30, 2009;

      •    determined whether overpayments were processed directly through the Medicaid
           Management Information System and included on other lines of the CMS-64; 4

      •    determined whether providers selected as part of our sample were bankrupt or out of
           business;

      •    based on the results of our stratified sample, estimated the value of overpayments in the
           sampling frame that were not reported during the audit period of FYs 2000 through 2008
           (Appendix B); and

      •    computed the potentially higher interest expense to the Federal Government resulting
           from overpayments and income not reported within the required timeframe using the
           number of days between required reporting dates and the Indiana FY ending June 30,
           2009. 5

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




4
    EDS researched some of the sample items to determine whether they were posted correctly through the system.
5
 We calculated the interest expense using the applicable daily interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.

                                                          4
                             FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. For Federal FYs 2000 through 2008, we estimated that the State agency did not
report Medicaid overpayments totaling $61,644,098 ($38,858,614 Federal share) in accordance
with Federal requirements. Also, the State agency did not report interest it collected on 24
overpayments totaling $61,894 ($39,061 Federal share) in accordance with Federal requirements.

Of the 120 overpayments we reviewed, 63 were partially reported or not reported on the
CMS-64. The remaining 57 were reported correctly or were not required to be reported. The
State agency also did not report all Medicaid provider overpayments within the 60-day time
requirement. Although the State agency collected interest on overpayments it collected, it did
not report all interest on the CMS-64 in accordance with Federal requirements. Finally, because
the State agency did not report all overpayments and was not always timely in reporting, the
Federal Government incurred a potentially higher interest expense.

The State agency did not properly report these overpayments because it had not implemented
internal controls to ensure that overpayments were reported on the CMS-64. Because the
overpayments were not properly reported on the CMS-64, the Federal Government may have
incurred increased interest expense of $786,500.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment amount because the provider is bankrupt or
out of business (42 CFR § 433.318).

For Federal FYs 2000 through 2008, we estimated that the State agency did not report Medicaid
overpayments totaling $61,644,098 ($38,858,614 Federal share) and interest it collected on the
overpayments totaling $61,894 ($39,061 Federal share) in accordance with Federal requirements.
Of the 120 Medicaid overpayments reviewed, 63 overpayments were partially reported or not
reported on the CMS-64. Specifically:

    •   Of the 100 randomly selected overpayments of $1,000 to $1 million,6 60 were partially
        reported or not reported on the CMS-64 and totaled $854,040 ($535,555 Federal share).
        Based on the sample results, we estimated that $18,528,351 ($11,615,084 Federal share)
        of the Medicaid overpayments between $1,000 and $1 million were not reported on the
        CMS-64.



6
  Four of the selected overpayments were not required to be reported on the CMS-64. Two overpayments were
reduced to zero in our audit period; one overpayment was a bankruptcy; and the remaining overpayment was
handled through the court system, which required separate reporting.


                                                      5
    •   Of the 20 overpayments that exceeded $1 million, 3 were partially reported or not
        reported on the CMS-64 totaling $43,115,747 ($27,243,530 Federal share).

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” For situations other than fraud and abuse,
Federal regulation (42 CFR § 433.316(c)) defines the date of discovery as the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery. For overpayments resulting from fraud or abuse, the date of discovery is defined at
42 CFR § 433.316(d) as the date of the final written notice of the overpayment determination
that the State sends to the provider. For overpayments identified through Federal reviews, CMS
will consider the overpayment discovered on the date the Federal official first notifies the State
in writing of the overpayment amount. These regulations do not allow for extending the date.
The State agency did not report all Medicaid provider overpayments in accordance with the
60-day requirement. Of the 120 sampled overpayments, the State agency reported 47
overpayments on the CMS-64, which included 9 overpayments that were only partially reported.
For the 47 overpayments that were reported, 22 overpayments totaling $32,951,628 ($20,410,636
Federal share) were not reported on the CMS-64 at the end of the 60-day period. The untimely
reporting resulted from the State agency’s unwritten policy of using the date of the final decision
for overpayments not related to fraud or abuse or the date that the State agency collected the
overpayment rather than the date of discovery. We discovered this in a prior audit. 7

INTEREST NOT REPORTED

Pursuant to 45 CFR § 92.21(f)(2), the State agency “… shall disburse program income, rebates,
refunds, contract settlements, audit recoveries and interest earned on such funds before
requesting additional [Federal] cash payments.” Federal grant administration regulations
(45 CFR part 92) became applicable to the Medicaid program on September 8, 2003. For prior
periods, similar provisions (45 CFR part 74) were applicable. In addition, the Departmental
Appeals Board (DAB) has determined that where Federal funds are used to produce interest
payments, these payments constitute an applicable credit within the meaning of Office of
Management and Budget Circular A-87 (now codified at 2 CFR part 225). CMS is entitled to a
share in the amount of any interest collected (e.g., New Jersey Department of Human Services,
DAB No. 480 (1983)).

In accordance with Federal requirements, section 2500.1 of the State Medicaid Manual instructs
State agencies to report interest earned on Medicaid recoveries on the CMS-64 Summary Sheet.

As a result of State Medicaid audits issued from FYs 2000 through 2008, the State agency
collected interest on recovered overpayments. For the 120 Medicaid overpayments reviewed, the
State agency collected interest totaling $78,857 for 53 overpayments. Twenty-nine of the
fifty-three interest payments totaling $15,610 were fully reported on the CMS-64. The State

7
 A-05-07-00072, Review of Indiana’s Reporting Fund Recoveries for the Medicaid Rehabilitation Option Program
on the Form CMS-64 for Fiscal Years 2000 to 2005.

                                                     6
agency partially reported one interest payment of $1,653. The State agency reported only $1,353,
leaving an unreported amount of $300 ($195 Federal share). For the remaining 23 overpayments,
the State agency collected interest totaling $61,594 ($38,866 Federal share) and did not report any
of those interest payments on the CMS-64.

POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments and was not timely in reporting
others, the Federal Government did not have the use of these funds. As a result, the Federal
Government potentially incurred an increased interest expense of $786,500. However, we did
not include this Federal interest expense in the amount of overpayments that we recommend the
State agency refund.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not implement internal controls to ensure that it correctly reported on the
CMS-64 the Medicaid overpayments identified from State Medicaid audits and settlements and
the interest it collected from recovered overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments totaling $61,644,098 on the CMS-64 and
       refund $38,858,614 to the Federal Government,

   •   include unreported interest it collected on Medicaid recoveries totaling $61,894 on the
       CMS-64 and refund $39,061 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest it collected on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our third recommendation.
Regarding the first recommendation, the State agency provided additional documentation and
indicated that most of the overpayments exceeding $1 million had been repaid, reported, or
resolved. The State agency stated that the remaining $18.5 million in overpayments had been
properly recorded pursuant to 42 CFR § 433.320. The State agency said that its practice has
been “to reduce federal draws to account for overpayments.” Regarding the second
recommendation, the State agency said it “routinely uses interest assessment as a form of
settlement with providers.”

The State agency comments are included as Appendix C.


                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s response, we revised our findings and recommendations to
exclude $26.9 million in overpayments as a result of additional documentation. We maintain
that our findings and recommendations for the remaining $61,644,098 in overpayments are
consistent with Federal requirements. The State agency’s policies regarding interest earned on
overpayment amounts are not in accordance with Federal regulations. During our review, we
took into account the State agency’s practice of reducing Federal draws to account for
overpayments. However, the State agency did not document that such reductions were made for
the overpayments we reviewed.

                                     OTHER MATTERS

The State agency did not report Medicaid overpayments from State Medicaid audits on the
correct line of the CMS-64. Of the 47 sampled overpayments that were reported on the CMS-64,
18 were reported incorrectly. In addition, the State agency did not report Medicaid overpayments
from State Medicaid audits at the correct Federal medical assistance percentages (FMAP).
Currently, the State agency reports Medicaid overpayments at the current-quarter FMAP rate,
rather than at the FMAP rate in place when the claim was submitted on the CMS-64.




                                               8
APPENDIXES
                                                                                       Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid overpayments that should have been reported on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64) during fiscal years (FY) 2000 through 2008 (October 1, 1999, through
September 30, 2008).

SAMPLING FRAME

The Indiana Family and Social Services Administration, Office of Medicaid Policy and Planning
(State agency), provided lists of Medicaid provider overpayments identified by all its contractors,
the Medicaid Fraud Control Unit, and the State Board of Accounts for FYs 2000 through 2008.
The sampling frame was limited to overpayments exceeding $1,000.

The sampling frame was an Excel file containing 3,498 Medicaid provider overpayments with a
total projected recovery of $353,006,823. The sampling frame was separated into two strata.
Stratum 1 consisted of 3,478 Medicaid provider overpayments of $1,000 to $1 million, with a
total projected recovery of $62,459,464. Stratum 2 consisted of 20 Medicaid provider
overpayments of more than $1 million, with a total projected recovery of $290,547,359.

SAMPLE UNIT

The sample unit was a Medicaid provider overpayment.

SAMPLE DESIGN

We used a stratified sample, defined as follows:

Stratum 1: 3,478 Medicaid provider overpayments of $1,000 to $1 million.

Stratum 2: 20 Medicaid provider overpayments of more than $1 million.


SAMPLE SIZE

We selected a random sample of 100 items from the 3,478 Medicaid provider overpayments in
stratum 1 and reviewed all 20 sample items in stratum 2.

SOURCE OF RANDOM NUMBERS

Random numbers were generated by the Department of Health & Human Services, Office of
Inspector General (OIG), Office of Audit Service’s (OAS) RAT-STATS statistical software
package.
                                                                                  Page 2 of 2


ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of Medicaid provider
overpayments not properly reported.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                      Sample Results

                                                           Number of      Value of
                                                          Overpayments Overpayments
                                                          Not Reported Not Reported
            Frame    Value of      Sample      Value of    Properly in   Properly in
Stratum      Size     Frame         Size       Sample        Sample        Sample
        1    3,478 $62,459,464         100     $1,589,585            60      $854,040
        2       20 $290,547,359         20   $290,547,359              3  $43,115,747
   Totals    3,498 $353,006,823        120   $292,136,944            63   $43,969,787


                          Estimated Medicaid Overpayments Not
                            Reported Properly on the CMS-64

                  (Limits Calculated for a 90-percent Confidence Interval)


                       Overall            Total Unallowable      Federal Share
            Lower Limit                          $61,644,098        $38,858,614
            Point Estimate                       $72,819,254        $45,870,136
            Upper Limit                          $83,994,411        $52,881,658
                                                                                                                  Page 1 of 16
                         APPENDIX C: STATE AGENCY COMMENTS 


                                                                                            Mitchell E. Daniels, Jr., Governor
                                                                                                              State of Indiana
                           Ii   People
                                helping people                             Office ofMedicaid Policy alld PIU/lIlillg
                                help                                 MS 07, 402 W. WASHINGTON STREET, ROOM W382
                                themselves"                                             INDIANAPOLIS, IN 46204-2739




July 19, 2010




Mr. James C. Cox
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Audit Services, Region V
233 North Michigan Avenue
Suite 1360
Chicago, IL 60601

Re:      Draft Report Number A-OS-09-00021

Dear Mr. Cox:

We are writing in response to the draft Office of Inspector General (OIG) report entitled "Review ofIndiana's
Reporlillg FUlld Recoveries for Federal alld State Programs all the CMS64". TIle audit period covered federal fiscal
years 2000 through 2008. TIle OIG recommendations and Olll' responses are noted below:

OIG Audit Recommendation: "include unreported Medicaid overpayments totaling $88,S63,104 on tilO CMS-64
and refund $SS,687,871 to the Federal Government".

TIle Office ofMedicaid Policy and Planning (OMPP) obtained the audit workpapers ofthe OIG to validate the
sample size and methodologies described in the draft report. Our review noted that of the 20 overpayments that
exceeded $1.0 million, totaling $70.0 million, $68.6 million in overpayments included in the audit workpapers have
either been repaid, reported, or resolved. Please see Attachment I which details our overpayment/reporting
findings. We respectfully request tile opportunity to continue Olll' work with CMS on resolution of the remaining
items included in this audit.

Upon review ofthe sample pertaining to overpayment letters issued to providers by our contractors HealthCare
Excel, Clifton Gunderson and PrudentRX, it was not readily apparent fi'om the audit workpapers that the OIG
considered the reduction in federal monies drawn compared to expenditures paid by the State. It has been tile
practice of the State to reduce federal draws to account for overpayments.

As a part of the State's due dilgence, we performed a limited scope audit on the remaining $18.S million in provider
overpayments of listed "Unable to Trace to CMS-64". We were able to validate propel' recording of overpayments
in accordance with 42 CFR §433.320 (also included in Attachment I). We would respectfully request that the
documentation showing that these samples were indeed recorded on the CMS-64 be accepted as validation and the
remainder of the extrapolated amounts be removed from repayment consideration.




                                                       'IWNI.IN.gov/fssa 

                                          Equal Opportunity/Affirmative Action Employer 

                                                                                                              Page 2 of 16


                                                                                      Mitchell E. Daniels, Jr., Governor
                                                                                                        State of Indiana
                           "People
                            helping people                             Office ofMedicaid Policy alld P/U//Ilillg
                            help                                MS 07, 402 W. WASHINGTON STREET, ROOM W382
                            themselves"                                            INDIANAPOLIS, IN 46204-2739




010 Recommendation: "include unreported interest collected on Medicaid recoveries totaling $61,894 on the
CMS-64 and refund $39,061 to the Federal Government".

According 405 lAC 1-1-5(g), Indiana has the discretion to assess interest on identified overpayments. TIle State
routinely uses interest assessment as a form ofsettlement with providers. As noted above, we request the 010 work
with the State to satisfY this reporting requirement.

010 Recommendation: "develop and implement internal controls to correctly report and reftllld the Federal share
of identified Medicaid overpayments and interest it collected on the overpayments on the CMS-64".

It is the State's goal to properly report overpayments in accordance with 42 CFR §433.320. We will implement
internal controls to ensure accurate, timely reporting ofoverpayments and properly return federal monies as a credit
on the CMS-64 beginning December 2010.

As noted previously, we propose to make dIe required reporting changes to bring Indiana into compliance with
federal regulations. At this time, we would like to re-iterate our desire to work with the OIG to perform a combined
adjustment on the CMS-64.

We are hopeful that you find this to be a sufficient response to the OIG audit report. Please contact Donna
Rutherford at 317-234-5287 should you have any questions or require additional information.

Sincerely,


yO ~tlM4y
Patricia Casanova
Director of Medicaid




                                                    WW'N.IN.govlfssa
                                      Equal OpportunilylAffirmative Acllon Employer
                                                                                                               Page 3 of 16




                                                              Report Number A-05-09-00021 Attachment 1




               Sample #             State Agency Comments to Draft Report (A-05-09-00021)

                          Enclosed you will find screen prints from the Indiana AIM System which
                          supports the establishment of an Accounts Receivable (AIR) for the repayment.
                          Once the IVR is established, the amount is included on the MAR, which feeds
                          the CMS-64 line 10 for the quarter in which the NR is established. In this
                          example, the overpayment was reported on line 10 of the eMS 64 for the
              3	          quarter ending 913012001.
                          Enclosed you will find screen prints from the Indiana AIM System which
                          supports the establishment of an Accounts Receivable (AIR) for a claim specific
                          recoupment. /l.s in the previous example, the amount is included on the MAR,
                          which feeds the CMS-64 line 10. In this example, the recoupment was on
              42 	        reported on line 10 of the CMS-64 for the quarter ending 3/3112008.
                          Enclosed you will find a letter and press release from the U.S. Department of
                          Justice regarding a restitution order for repayment and the collection of from two
                          individuals involving Medicaid Fraud. Per Section 2500.1 of the State Medicaid
                          Manual: "Where a Civil Monetary Penalty action is taken, and the provider
                          returns an overpayment to the Federal government, the State share is returned
                          by a U.S. Treasury check. Since the Federal government obtains the Federal
                          share of the overpayment, CMS does not recognize the decreasing adjustment
              118 	       for Federal funding purposes


                          Enclosed you will find an email dated June 22, 2009 from the State Board of
                          Accounts Auditor in Charge, which confirms adjusting the overpayment to
              122         $11,494,502.86, which the auditors confirmed as reported on the CMS-64.

                          Enclosed you will find the packet "SBoA Audit Finding: 2007-FSSA-3", which
                          shows the reporting of the repayment on Line #1 OB of the CMS-64 for the
              123         Quarter Ended, March 31,2009.

                          Enclosed you will find the SBoA Audit Finding: 2007-FSSA-6. The Indiana
                          Family Social Services Administration disagrees with this finding and the need
                          for repayment, as OMPP believes the calculation of the quarterly payments is in
              124 	       accordance with the Indiana Medicaid State Plan.




Note: Samples 3, 42 and 118 contain proprietary and/or personally identifiable infonnation. As a
result, these samples are not included as part of this report.



Note: The documents referred to in this attachment are not included in the report due to PII and/or
proprietary information. Also, these documents do not meet the requirements of FOIA.
              Page 4 of 16




Sample 122
SBoA Audit
Finding
2006-FSSA-S
                                                                                                            Page 5 of 16

Rutherford, Donna L

From:                        Nelson, David A
Sent:                        Thursday, April 01, 2010 8:54 AM
To:                          Rutherford, Donna L
Subject:                     FW: status of finding 2006-fssa-5 State Owned Intermediate Care Facility




From: Rankin, Mary E.
Sent: Monday, June 22, 2009 10:08 AM
To: Nelson, David A
Cc: Willits, Terri; Kirby, Robin; 'Schmit, Cody J (OIGjOAS)'
Subject: RE: status of finding 2006-fssa-5 State Owned Intermediate Care Facility

David:

Yes this is correct. We have a remaining variance as to the federal share rate applied upon returning the funds, as the
2008 rate of 62.69 was used, but when the overpayment was issued the rate of 62.98 applied. My calculations show an
additional $33,334 owed to the federal government then.

Thank you,



Jllwu, 91anfUn e 9' a
audilmt in etuvtfJe
State flJowtd at accaunt.>




From: Nelson, David A 

Sent: Wednesday, June 17, 2009 7:16 PM 

To: Rankin, Mary E. 

Cc: Willits, Terri; Kirby, Robin; Schmit, Cody J (OIGjOAS) 

Subject: status of finding 2006-fssa-5 State Owned Intermediate Care Facility 


As we discussed, please confirm that the SBoA concurs that the total overpayment amount of finding 2006-FSSA-5 State 

Owned Intermediate Care Facility, has been revised to be calculated as $11,494,502.85 and the only outstanding issue is 

an difference between the federal share computer by SBoA and the actual federal share returned.    .

Thanks, 

David 





Prior Comment: 

The federal share of the overpayment at .6298 (2006 rate) was $7,239,237.81. On June 18, 2008 the federal share of 

current expenses was reduced by $ 7,205,903.84 in the grant ledger. 





                                                            1
              Page 6 of 16




Sample 123
SBoA Audit·
Finding
2007-FSSA-3
                            Page 7 of 16




       SBoA Audit Finding
       2007 - FSSA - 3




I .

i

! .
                                                                                                           Page 8 of 16


                                                                                                       OMB No. 0938·0067
Department of Health and Human Servl                                                                    Expires 8/3112011
Centers for Medicare & Medica id Services
                                        Medical Assis tance Expen diture s By Type Of Service
                                                For The Medical Assis tance Program
                                             Prior Period Adjus tment s In This Quarter
                                                                                                Quarter Ended: 03131/2009
State: Indiana
                                                                                                         Fiscal Year: 2008



   11M 7t; /~t?                                                                                                    Deferral 

 Medical Assistance Payments                                                                           Total         Or 

                                                                                                      Federal       C.I.N.

!?EiIJ verl,w" F i.tl srfh'lf ­            Tolal   FMAP   Services Services
e. ')(j i-!3   t> i" SEt', .f/OD(3                         100%      90%
/l v o,-,-A         F /) tz. () /I- F                                 (O)     (E)
                                                    (B)




                                                                                                 Tuesday. May 12, 2009·01 :37 PM
 Form CMS 64.9P
                                                                                                             Page 9 of 16


                                                                                                   OMS No. 0938-0067
Depart ment of Health and Human SerVo                                                               Expires 8/31/2011
Cente.rs for Medicare & Medica id Services
                                Medical Assis tance Expen diture s By Type Of Servic e
                                        For The Medic al Assis tance Progr am'
                                     Prior Period Adjus tment s In This Quarter
                                                                                         Quarte r Ended: 03/31/2009
State: Indiana
                                                                                                   Fiscal Year: 2008



                                                                                                               Deferral 

 Medical Assista nce Payments                                                                      Total         Or 

                                                                                   Federal        Federal        C.I.N. 





     Llh~        5

            ---'
    ---~
-TVi 11 R. ~70 I') 

          L.,J        P' y 

                  Jep~.
          2.tJ07 -F.fS# - J 

                                                                                             Tuesday. May 12, 2009 - 01:37 PM
 Form eMS 64.9P
                                  "j   I,   .\,1'L /JI!
                                                                                                                                                   - --------




-

....
<D



o
 o
....
 CIl

        MAR-701S-a 	
                                                                                             PERIOD: 3/3112009                                                                                •       .os


 OJ 
                                                                                      7015 Medicai d FY2008
                                                                                                                                                   BREAST OR         CALCULATED
c.."'
                                                                       ON-OEMAND 	                                                                                      TOTAL            TOTAl FEDERAl.
                                                                         TOTAL               FMAP              INDIAN HEALTH FAMILY PLANNll\ lG CERVICAL CANCER                             SHARE
                                                                                                                 SERVICES       SERVICES            SERVICES         COMPUTABLE
                                      TYPE OF SERVICE                  COMPUTABLE           62..69%
                                                                                                                                        $0.00             $0.00         $586.714.04          $361.811 .03
                                                                          $586,714. 04       $586.714.04                $0.00
        1A 	        INPATIENT HOSPITAl. SERVICES· 

                    REGULAR PAYMENTS                                                                                                    $0.00             so.OO               $0.00                  SO.OO

                                                                                 $0.00                $0.00             $0.00
        16. 	       INPATIENT HOSPITAl. SERVICES· 

                    DSH ADJUSTMENT PAYMENTS                                                                                             so.oo             $0.00          $34,980.-:'3         S21.92$.23

                                                                           $34.980.44         $34,980.43                SO.OO
        2A. 	       MENTAL HEALTH FACILITY SERVlCES­
                     REGULAR PAYMENTS 	                                                                                                 $0.00             $0.00                50.00                 so.oo
                                                                                 $0.00                $0.00             $0.00
        2B. 	        MENTAl HEAL.TH FACILITY SERVICES­


         3	
                    DSHAOWUSTMENTPAYMENTS
                    NURSING FACILITY SERVICES _____ 	             (f)    S2.4$7.366.37      $2.4$7.366.36               $0.00           $0.00              SiO. OO     $2.487,366.36

                                                                                                                                                                               SO.OO
                                                                                                                                                                                            51.559,32 9.97


                                                                                                                                                                                                     so.oo
                                                                                                      $0.00             $0.00            $0.00             $0.00
                                                                                 $0.00
         4A. 	      ICF MENTALLY RETARDED SERVICES·
                    pueuc PROVIDERS 	                                                                                                    $0.00             $0.00        $522,151.00           $327.336.46
                                                                          $522,151.01         $522,151.00               $0.00
         4S. 	      rCF MENTALLY RETARDED SERVICES·
                    PRIVATE PROVIDERS 	                                                                                                                   $82.51          SSS.317.8 9          $35.314.9 3
                                                                            $56,317.91         $55,235.38               so.oo            $0.00
         5          PHYSICIANS' SERVICES.
                                                                                                                                         $0.00         S1.074.88         S147.793. 69          $92,772.15
                                                                           $147.793.71        $146,718.81               SO.OO
         6          OUTPATIENT HOSPITAl. SERVICES
                                                                                                                                       $497.29            $55.67         S262,797.23          $164.889.63
                                                                           5262.797.2'        $262,244. 27              $0.09
         7	         PRESCRIBED DRUGS
                                                                                                                                         SO.OO             $0.00               $0.00                  $0.00
                                                                                  $0.00                $0.00             $0.00
         7At.       DRUG REBATE OFFSET· NATIONAl. AGREEMENT
                                                                                                                                                            $0.00               $0.00                 SO.OO
                                                                                  so.OO                $0.00             SO.oo           $0.00
         7A2. 	 DRUG REBATE OFFSET· STATE SIDEBAR
                AGREEMENT 	                                                                                                                                $0.00           $9.884.43              $6,196.58
                                                                             $9,884.4$          $9,884.48                $0.00           SO.OO
         8	     DENTAl SERVICES
                                                                                                                                         $0.00              $0.00          $3,286.71              $2,060.44
                                                                             $3.286.72          $3,286.71                $0.00
          9          OTHER PRACTIT10NERS' SERVICES
                                                                                                                                                            so.oo        $503,056.78           $315.3~, 61
                                                                                              $503,008.04                $0.00          $48.74
                     CUNIC SERVICES                                        S503.056.79
          HI
                                                                                                                                          so.oo           $1'0.45          $12.973..74             $8,145.60
                                                                             $12,973.7 6        $12.863.3 0              SO.Oo
          11         lABORATORY & RADIOLOGICAl. SERVICES
                                                                                                                                                            so.oo          S72,290.25             $45,318.76
                                                                             $72.290.26         $n.290~                  so.oo            SO.OO
          12 	       HOME' HEALTH SERVICES
                                                                                                       $0.00             $0.00            $0.00             so.oo               $0.00                  so.oo
                                                                                  $0.00
          13         STERILIZATIONS
                                                                                                                                          SO.OO              $0.00               so.oo                 SO.OO
                                                                                   $0.00               $0.00             $0.00
             14 	    ABORTIONS
                                                                                 $267.08              $267.08             SO.OO           so.oo              so.oo            $267.08                $161.43
             15 	    EPSDT SCREENING SERVICES
                                                                                                                                          so.oo              $0.00         $24,789.03             $15,540.24
                                                                             $24,789.0 4        $24,789.0 3               SO.OO
             16 	    RURAL HEAlTH CUNIC SERVfCES
                                                                                                                                                             sO.oo               so.oo                 $0.00
                                                                                   SO.oo                $0.00             so.oo           $0.00
             17A. 	 MeDICARE HEALTH INSURANCE PAYMENTS­
                    PART A PREMIUMS 	                                                                                     so.OO           SO.oo              $0.00               so.oo                 so.oo
             17B. 	 MEDICARE HEALTH INSUAANCE PAYMENTS ~
                                                                                   so.oo                $0.00
                    PART 8 PREMIUMS                    .                                                                                                     so.oo               so.oo                 $0,00
                                                                                   $0.00                SO.OO             so.oo           SO.oo
             i7e" 	 MEDICARE HeAl.TH INSURANCE PAYMENTS ~

                      QUALIFYING INDMDUA LS -120%-13 4% OF POVERTY 

                                                                                                                                                                                                           - - - - -- - - -




...

-
<0                                                                                                        PERIOD: 313112009                                                                                  •       .DB
          MAR·7015 -Q 	



......o   17C2. 	 MEDICA~e HEALTH INSURANCE PAYMENTS­
                                                                                              so.oo              $0.00         $0.00                $0,00               $0,00                 so.oo                 $0.00 


                  QUALIFYING INDMOUAL$ ~ 1350/0"175% OF POVERTY                                                  $0,00          $0,00                   $0.00           SO,OO                 sa.oo                 $0,00
 GJ 	                                                                                         $0,00
 OJ       170, MEDICARE HEALTH INSURANCE PAYMENTS­

 til              COINSURANCE AND DEDUCTIBLES                                                                                   SO,OD                   $0,00           $0.00                 $0,00                 so.oo

                                                                                              SO,OO              SO.DO
a. 	      1SA. MEDICAID HEALTH INSURANCE PAYMENTS­
                  MANAGED CARE ORGANIZATION (MCO) ,                                                              $0,00          SO,OO                   SO,OO           so.oo                 SO,OO                . SO,OO
                                                                                              SO,OO
          1SS: 	 MEDICAID HEALTH INSURANCE PAYMENTS­
                  PREPAID HEALTH PLANS (PH?)                                                                                                                                                  $0.00                  $0,00
                                                                                              $0,00              SO,OO          $0,00                   so.oo           $0.00
          1ac. 	 MEDICAID HEALTH INSURANCE PAYMENTS­
                  GROUP HEALTH PLANS                                                                                                                    so.oo           $0.00                 $0,00                  so.oo
                                                                                               $0.00             $0.00          $0.00
          180. 	 MEDICAID HEALTH INSURANCE PAYMENTS­
                  COINSURANCE AND DEDUCTIBLES                                                                                                           so,OO           $0,00                 $0.00                  $0.00
                                                                                               $0.00              $0,00         so,oo
           18E. MEDICAID HEALTH INSURANCE PAYMENTS - OTHER
                                                                                                                                SO,OO                   SO.OO            $0,00                $0.00                  so.oo
                                                                                               $0.00              $0.00
           20      HOME AND COMMUNITY BASED SERVICES 	
                   FUNCTIONALLY DISABLED ELDERLY 	                                                                $0,00         $0.00                   SO,OO            SO,OO                SO,OO                  $0.00
                                                                                               $0.00
           21 	    COMMUNITY SUPPORTED UVlNG ARRANGEMENTS
                                                                                                                                                        SO,OO            $0,00                 $0.00                 $0.00
                                                                                               SO.OO              so.OO         SO,OO
           22 	    PROGRAMS OF ALL-INCLUSIVE CARE ELDERLY
                   (PACE)                                                                                                        SO.OO                  $0,00            SO.OO                 $0,00                 so.OO
                                                                                               $0,00              $0.00
           23      PERSONAL CARE SERVICES
                                                                                                                                                         $0.00           $0,00               $143,3$                SS9,89
                                                                                             $143.40            $143.39          $0.00
           24 	    TARGETeD CASE MGMT SERVICES
                                                                                                                                                         $0.00           $0.00                 $0,00                  $0.00
                                                                                               so.Oo              $0,00          $0.00
           25 	    PRIMARY CARE CASE MANAGE MENT SERVICE S
                                                                                                                                                         so,oo        $3.703,$            $47.630.17             $30.273.78
                                                                                          $47,630.1 8        $43,926.6 1         $0.00
           26 	    HOSPICE BENEFITS
                                                                                                                                                         SO,OO           $0,00                 $0,00                  so.oo
                                                                                               SO.OO               so.oo         $0,00
           21 	    EMERGENCY SERVICES - UNDOCUMENTED ALIENS
                                                                                                                                                                         SO,OO                $45,99                 $28.83
                                                                                               546.00            $45,99          so,oo                   SO.OO
           28 	    FEDERALLY QUALIFIED HEALTH CENTER
                                                                                                                                                         $0,00          $19.55            $$9,573.84             $52,431.7 5
                                                                                          $99,573.8 6        $99.494,2$          SO,OO
            29A. 	 OTHER CARE SERVICES
                                                                                                                                                    S54S.03,          S5,106.62         $4,872,0&2.08       $3,055,016.31
                                                                                     $4,872,062,29        'S4.866,40 9.43        SO.OO
            30A 	 Subtotal
                                                                                                                                                                          so.oo          $240,884. 08        $1$1,010. 23
                                                                                          $240,884. 09      $240,884. 08         so.oo 	                 SO.OO
            19 	   HOME AND COMMUNITY BASED SERVICES - TOTAL 	                                               914.916.00          SO,OO                   SO,OO            SO,OO           $14,916.0 0          $9,350.84
                   A AGED AND DISABLED WAIVER                                              $14.916.01                                                                     SO.OO            $4,944.86              $3,099.93
                                                                   (                                          $4,944.86           ~ .OO                  ~.OO
                                                                                            $4,944.87                                                                                                        $129,871...90
                   B. AUT1SM WAIVER 	                                                                                             SO.OO 	                SO.OO            $0,00          $207,165. 26
                                                                                          S207.165.26       $207,165. 26
                   C. DEVELOPMENTALLY DISABLED WArvER 	            \
                                                                                                                   SO,OO 	        $0,00                  $0.00            so.oo                $0.00                  SO,OO
                                                                                                $0.00
                   O. MEDICALLY FRAGILE CHILDREN'S WANER                                                       $1,656.28          SO.OO                   $0,00           $0,00 	          51,656.28              $1,038.32
                                                                                            $1,656.29                                                                                                                 $0,00
                   E. TRAUMA.TIC BRAIN INJURY WAIVER                   \                                           SO,OO          $0.00                   $0.00           SO,OO                SO.OO
                                                                                                $0,00                                                                                                             $7,649.22
                   F,A$5ISTED LMNG WArvER                                                                     S12.201.66          $0.00                   $0.00           SO,OO           $12,201.6 6
                                                                                           $12,201.6 6                                                                                                                 SO.oo
                   G, SUPPORT SERVICES WANER 	                                                                     $0.00          $0.00                   $0.00           SO,OO                $0.00
                                                                           \,	                  $0,00
                   H. SERIOUS EMOTIONAL DISTURBANCE WArvER '                                                                      SO.OO                   SO,OO           SO,OO                 SO,OO                  SO,OO
                   I. COMlVlUNIlY ALTERNATIVES TO PRTF                      j                   SO,OO 	             $0,00
                                                                                                                    SO.OO         SO,oo                   SO,OO           $0,00                 $0.00                  so,oo
                   J, AGED AND DISABLED MFP                                J.                   $0.00 	
                                                                                                                    SO,OO         SO.OO                   $0,00           $0,00                    $0,00               SO,OO
                   K DEVIELOPMENTALLY'DISABLED MFP                         I                    SO.OO 	                                                                   SO.OO                    SO.OO               $0,00
                                                                                                                    $0,00         SO.OO                   $0.00
                   L, TRAUMATIC BRAIN INJURy'MFP                       /                        $0,00
                                                                                                                                                        $546.03        $5,106.&2        $5,112,940,16       $3,20$,026.54
                                                                                      S5,112,940.38        55,107,.293.51         $0.01)
             lOB 	 TOTAL
                                                                  /4,                                                         /...~57 fA 1>t!.lt a.ie p., Of) 5   <p"!P) 5&:1" o8'?.>
                                                                           'f.)   '1:<,
                                                             3</, '119 ,'i88 ' - - ­
                                                                                           0 {P $?
                                                                                                                              500ft         /f<1PIT '    9ffr     < g, CA '3~            ,/04 '/

                                                          -	 3q)~q/} 550                              1
                                                                                                                                                                  -
                                                                                                                                                                      ?A/~/:
                                                                                                                                                                                    q   ,I
                                                                                                                                                                                        ;r'it'P
                                                                                                                                                                                               ,
                                                                                     Page 12 of 16

                               Query Results for last 

                             pay cycle of September to 

                             be booked In Octobe r 2008 

                                       CMS6 4 

                         Line 7 2009 Increasing Adjustment 

                       Line 10B 2008 Decreasing Adjustment 





     7010         5    2     2A                 454,122.91            "....-..

     7Ql0_                    3
              10,797,~44              "(1/
     7010         11         48 

     7010         l'          5

                  12    6     6'                 70~.:-lR?R~
     7010
     7010 
       13          7                1,903,711.
     7010         16          8                  371.

    .7010                     9	                   76,:182.'1
     7010         18   10    10           .    2,597,190.53
       0'         19                              152,875.69 

      70'                                      l ,I        .1:

     roo                                               6,18L7~ 


    7010          23  15  15 	                           ,
      010 	           11  16                          32,21 1.96
                     _1:  18E                             1~ 9.6C
     '0' 10 	
     rOl0 	           2-   24                          9,81g.ge
     7010         53 26 ' 26                                  •. 16
      )10         55 28   28                          2~1,517.    

       110        56 29    29                  1, 

  701 Total 


 HCB~ 	w aivers
      7010        38 19      19A 

     7010         39 19      198                 11 

     7010         40 19      19C               2,916 718.59 ,Dev
     7010         42 ,19     19E 
                 34,651,51 TBI                 I
     J01()        44 , 19    19G                 171 





~:113                   5	
                        7     7
                               5
                                                             509.91
     7050
                  18   lC     10                              40.4~
     7050
     7050              1      11 
                           109.49
     7050              1     18A                2,1:

     7050 	            1     18E                  946,175.66
   7050 Total                                           1.37


                                      ,




                                                                                           Page 1
                                                                                                                                                                                                  Page 13 of 16




                                                                                                                                                                       .••.-.......... . - ....- - ···..···.. - 1 





                                                                ', '




                                                         "' ~   -- ~ ~ ., ,-- .... ,-~ ...-.,.i- ..   <o _ ••   ~ _•   • --- •• •   ".j-_.            . - ._-.".,_.- ._.., ..• --•.•..•_-_ ..•_.,.••.- -­

                                                           P!I! .P"I.~~~~~d. Y.Y~!'!~d. _.....__J~~.~&!~)L ...._...(1~!t~5~L. _.' , ". __." " .._.... _
                                                                                                                                                                                    .. ~   _~,~......_   .__
                                                          - Oev DIsabled                                 .
                                                                                (2,916,719)~     {1,S28,491)!.•.._.• _._.. . _ ~ _. __.___ _,.•. - . .. . ...                                                  ..._ . .J
                      _~ ..,..__ .. ...., _. __ ..._.____.._... ____ ____.__._i
    1~~~~:;~l~~;~~~~n~;T~;i~~i;~~~;~~;ii~~ ::~~,..~_~ ~_,.:~.=_ .....!- . .....J3.,m,~~l~ ~: : :~:::~:1.:=~~:~~::
                                                                         .:;.;_.:                                                      .                      ----I                    . ....-..-.. -. -......
                                                                                                                                                                ......._.._... --_.-..._-_
    12                                                                                                                                ,

                                                                                                                                             '''''~'C''   ....._.. .... ..... _ .. .... _ ..___... ... 





                                                                                                                                                                                                                           I
                                                                                                                                                                                                                           I
                                                                                                                                                                                                                           I
j
                                                                                                                                                                                                                           I
                                                                                                                                                                                                                           I
                                                                                                                                                                                                                           I
                Page 14 of 16




Sample 124
SBoA Audit
Finding
2007-FSSA-6 

                                                                                                   Page 15 of 16



FINDING 2007 - FSSA-6. FACULTY PHYSICIAN ACCESS TO CARE ADJUSTMENTS

Federal Agency:                  Department of Health and Human Services
Federal Program:                 Medical Assistance Program
CFDA Number:                     93.778
Auditee Contact Person:          Terri Willits
Title of Contact Person:         Director of Finance, OMPP
Phone Number:                    317-234-5553
Compliance Requirement:           Allowable Costs/Cost Principles
Internal Control:                Significant Deficiency

Finding:

        FSSA-OMPP is authorized by the approved state plan to make adjustments to payments for serv­
ices provided by facu lty physicians to Medicaid recipients. These payments are made in order to main­
tain adequate access to such care, and in recognition of additional costs incurred in providing faculty
physician services to Medicaid patients. There are two physician groups that were identified as qualified
to receive these payments as faculty of the School of Medicine.

        The approved state plan , attachment 4.19B part V, 1.a. specifies the calculation method as fol­
lows:

        " . . . adjustments to payments for faculty physician services will be made quarterly by the office in
        an amount not to exceed the lesser of billed charges or an amount equal to the difference
        between:

           i. 	   The amounts paid for services rendered to Medicaid recipients pursuant to the
                  RBRVs fee schedule and

           ii. The amounts that are the usual charges as defined in c. below, for the same services."

         Usual charges are defined for calendar years beginning after December 31, 2003, as "an amount
equal to the amount of the immediately preceding calendar year's usual charges, increased by an amount
that is equal to the applicable Medicare Sustainable Growth Factor as calculated pursuant to the formula
at 42 USCS 1395w-4(f)(2)."

        The plan further provides that results of an annual review will be applied to the quarterly payments
for the following calendar year. Examples were given which indicate that payment reductions would
occur if performance levels are not met.

         Payments issued for the faculty physician access to care adjustments for calendar 2006 and 2007
were based upon estimates. The estimated payments for 2006 were the 2005 payments multiplied by the
percentage change between 2004 and 2005. The estimated payments for 2007 were the 2006 estimate
multiplied by the same percentage change between 2004 and 2005. The two faculty physician groups
experienced rates of change between 2004 and 2005 of 17% increase and 15.5% decrease, respectively.

       There also were no state contracts with the provider entities even though the payment adjust­
ments were only based upon estimates, and as such could result in amounts owed back to the program.

       During fiscal 2007, a total of $41,666,667 was paid for 2006 and 2007 estimated faculty physician
access to care adjustments. The federal share of these costs was $26,087,500. By February 2008 the
actual payments owed for these periods had not yet been calculated , nor had the effect of the per­
formance measures been applied. Due to the use of the estimates only, we were unable to determine the
accuracy of the payments issued. As a result, we consider the federal share of the amounts paid to be
questioned costs which may be required to be repaid to the federal government.
                                                                                               Page 16 of 16




       The conditions noted above result in a significant control deficiency.


         "The plan must describe the policy and the methods to be used in setting payment rates for each
type of service included in the State's Medicaid program." 42 CFR 447.201 (b)

       Indiana Code 4-13-2-14.2 requires that state agency contracts be in writing. Indiana Code 4-13-2­
1-20 generally prohibits advance payments without the approval of the State Budget Agency.

        We recommended that FSSA ensure that the faculty physician service adjustments are calculated
in accordance with the approved state plan provisions. The amounts calculated for 2006 and 2007
should then be compared to the payments that were issued, with collection sought for any excess pay­
ments issued. Written state contracts should be issued to the faculty physician groups to specify the
terms of the access to care adjustment payments and to document the performance attributes referred to
in the plan.

Status of Finding as of September 2009:

         As noted above, OMPP believes that using estimates for the quarterly payments is reasonable
based on the language in the state plan, Page 1c of section 4.9 B of the Indiana Medicaid State Plan.
The calendar year 2006 year-end settlement was completed in August 2008, and the calendar year 2007
year-end settlement was completed in April 2009. One provider received additional payments for both
years, while the other owed money to the State for both years and has repaid the amounts due.
Quarterly payments of $34.5 million were made for calendar year 2008, and the year end settlement
calculation will be completed following the providers' one year claims filing period.

       Since the CY 2006 and 2007 settlements have been finalized, and the money owed to the state
has been returned, OMPP believes this finding should be resolved and intends to appeal this matter to
CMS. As our opinions differ on this matter, the finding remains open.
